<html>
<title> - THE LIGHTSQUARED NETWORK: AN INVESTIGATION OF THE FCC'S ROLE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
      THE LIGHTSQUARED NETWORK: AN INVESTIGATION OF THE FCC'S ROLE
=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 21, 2012

                               __________

                           Serial No. 112-180



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
86-420                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         TAMMY BALDWIN, Wisconsin
CHARLES F. BASS, New Hampshire       MIKE ROSS, Arkansas
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey            Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia


              Subcommittee on Oversight and Investigations

                         CLIFF STEARNS, Florida
                                 Chairman
LEE TERRY, Nebraska                  DIANA DeGETTE, Colorado
SUE WILKINS MYRICK, North Carolina     Ranking Member
JOHN SULLIVAN, Oklahoma              JANICE D. SCHAKOWSKY, Illinois
TIM MURPHY, Pennsylvania             MIKE ROSS, Arkansas
MICHAEL C. BURGESS, Texas            KATHY CASTOR, Florida
MARSHA BLACKBURN, Tennessee          EDWARD J. MARKEY, Massachusetts
BRIAN P. BILBRAY, California         GENE GREEN, Texas
PHIL GINGREY, Georgia                DONNA M. CHRISTENSEN, Virgin 
STEVE SCALISE, Louisiana                 Islands
CORY GARDNER, Colorado               JOHN D. DINGELL, Michigan
H. MORGAN GRIFFITH, Virginia         HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     1
    Prepared statement...........................................     3
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     9
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................     9
    Prepared statement...........................................    12

                               Witnesses

Julius P. Knapp, Chief, Office of Engineering and Technology, 
  Federal Communications Commission..............................    15
    Prepared statement \1\
Mindel De La Torre, Chief, International Bureau, Federal 
  Communications Commission......................................    17
    Prepared statement...........................................    20

                           Submitted Material

Chart, dated March 2012, ``Selected VHF and UHF Frequency 
  Bands,'' Office of Engineering and Technology, Federal 
  Communications Commission, submitted by Ms. DeGette............    45
Subcommittee exhibition binder, submitted by Mr. Stearns.........    48

----------
\1\ Mr. Knapp and Ms. De La Torre submitted a joint statement for 
  the record.


      THE LIGHTSQUARED NETWORK: AN INVESTIGATION OF THE FCC'S ROLE

                              ----------                              


                       FRIDAY, SEPTEMBER 21, 2012

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:33 a.m., in 
room 2123, Rayburn House Office Building, Hon. Cliff Stearns 
(chairman of the subcommittee) presiding.
    Members present: Representatives Stearns, Burgess, 
Blackburn, Bilbray, Griffith, and DeGette.
    Staff present: Ray Baum, Senior Policy Advisor/Director of 
Coalitions; Karen Christian, Deputy Chief Counsel, Oversight 
and Investigations; Andy Duberstein, Deputy Press Secretary; 
Neil Fried, Chief Counsel, Communications and Technology; Kirby 
Howard, Legislative Clerk; Brian McCullough, Senior 
Professional Staff Member, Commerce, Manufacturing, and Trade; 
David Redl, Counsel, Communications and Technology; Alan 
Slobodin, Deputy Chief Counsel, Oversight and Investigations; 
John Stone, Counsel, Oversight and Investigations; Daniel 
Tyrrell, Counsel, Oversight and Investigations; Alvin Banks, 
Democratic Investigator; Tiffany Benjamin, Democratic 
Investigative Counsel, Oversight and Investigations; Shawn 
Chang, Democratic Counsel; Brian Cohen, Democratic 
Investigations Staff Director and Senior Policy Advisor; Kiren 
Gopal, Democratic Counsel; Roger Sherman, Democratic Chief 
Counsel.
    Mr. Stearns. Good morning, everybody. And let me start the 
Oversight and Investigations Subcommittee this morning. And I 
have my start with an opening statement.
    But I would say because the House is having some early 
votes this morning, I ask unanimous consent that the written 
opening statements of all the members be introduced into the 
record.
    Without objection, the documents will be entered into the 
record.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    My colleagues, today, after 8 months of investigation, the 
Subcommittee on Oversight and Investigations will examine the 
Federal Communications Commission's decision and orders 
relating to LightSquared and the Commission's efforts to build 
a wireless mobile broadband network.
    The controversy regarding LightSquared and its efforts to 
build a national wireless broadband network revolves around a 
piece of spectrum called the L-band. This band of spectrum has 
historically been reserved for satellite services. In 2003, in 
order to encourage more efficient use of the band, the FCC 
issued an order permitting mobile satellite service providers 
to integrate an ancillary terrestrial component or land-based 
component into these networks as long as they met certain 
requirements.
    Since that time, LightSquared and its predecessors have 
been involved in multiple proceedings before the FCC involving 
the development of its terrestrial component. During these 
proceedings, LightSquared reached agreement with GPS companies 
about ``out of band emissions'' that may result from its 
terrestrial-base stations and invested approximately $4 billion 
in its network. In March 2010, the FCC approved the transfer of 
SkyTerra's L-band licenses to LightSquared, enabling the 
company to deploy a nationwide broadband network. This transfer 
was conditioned on LightSquared meeting an aggressive build-out 
schedule and agreeing not to provide service to the Nation's 
two largest wireless carriers.
    In January 2011, the FCC granted a conditional waiver 
allowing LightSquared's customer to access its network using 
devices only capable of receiving terrestrial signals. The 
waiver was conditioned on LightSquared resolving an overload 
interference issue raised by the GPS community. These 
interference issues were a different technical concern from 
out-of-band emission problems that had been raised by the GPS 
community in a prior proceeding.
    A Technical Working Group was formed to examine the 
overload interference issues affecting GPS receivers. NTIA 
later charged PNT ExCom with validating the testing. In 
February, NTIA concluded that LightSquared's system would cause 
unacceptable interference to GPS. Only 1 day later, the FCC 
moved to revoke its conditional approval of LightSquared's plan 
to build a 4G wireless broadband network leaving the company 
and spectrum holdings in regulatory limbo.
    That is where we stand today. LightSquared, a company that 
committed billions of dollars and years of time in developing 
its network, has filed for bankruptcy. Its 40 megahertz of 
spectrum is left unused at a time when demand for wireless 
service and broadband is exploding. We have convened this 
hearing today to determine whether this could have been 
prevented.
    This hearing also raises important implications for 
spectrum policy going forward. Regulatory uncertainty at the 
FCC will deter new innovative ideas and competition in the 
mobile space. Moreover, it is not sound spectrum policy to 
allow 40 megahertz of spectrum to sit fallow, while at the same 
time seek to relocate broadcasters and Federal users off of 
spectrum holdings to free up more space for wireless use.
    So I look forward to the testimony of our two witnesses 
today.
    [The prepared statement of Mr. Stearns follows:]

    [GRAPHIC] [TIFF OMITTED] 86420.001
    
    [GRAPHIC] [TIFF OMITTED] 86420.002
    
    [GRAPHIC] [TIFF OMITTED] 86420.003
    
    [GRAPHIC] [TIFF OMITTED] 86420.004
    
    [GRAPHIC] [TIFF OMITTED] 86420.005
    
    [GRAPHIC] [TIFF OMITTED] 86420.006
    
    Mr. Stearns. And I recognize the ranking member, Ms. 
DeGette, for an opening statement.
    Just a moment. I think we are going to just take 5 on this 
side and 5 on your side.
    So I will go to Dr. Burgess.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. I thank the Chairman for yielding.
    I thank the witnesses for being here today. I am grateful 
we are having a hearing. I know my constituents appreciate it.
    So the expansion of the 4G cellular networks to a portion 
of radio spectrum traditionally reserved for mobile satellite 
communications would improve mobile satellite communications 
and benefit U.S. consumers needing more brandwidth for 
communication.
    But somehow somewhere along the way things went off track. 
The FCC obviously has the obligation to be the caretaker of the 
electromagnetic spectrum. The question is raised, did they do 
their job? A decision to grant LightSquared the conditional 
waiver order on January 26, 2011, does seem to be ill advised. 
The period for public comment before the granting of the 
conditional waiver order was brief, and whether it was 
intentional or unintentional, it was placed in the middle of 
the holiday season the year before. Requests for an extension 
of the period for comment were not honored and a decision was 
made in haste over the objections of the United States Air 
Force and the GPS industry itself.
    Benjamin Franklin said, haste makes waste. In the operating 
room, we have a saying, go slowly, I am in a hurry. This time 
it seems that haste was in fact the enemy of good decision 
making. The FCC attempted to address the concerns in the 
formation of a government and industry working group, but the 
solutions have not proved up to the task. I hope today's 
testimony will shed light on these events.
    Mr. Chairman, I thank you for the recognition. I yield 
back.
    Mr. Stearns. I now recognize the ranking member, Ms. 
DeGette.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you very much, Mr. Chairman.
    I really want to thank you for having this hearing today on 
LightSquared and expanding access to broadband, which we all 
agree is a key driver of economic growth for our Nation.
    This administration has taken unprecedented steps to 
accelerate deployment of wired and wireless broadband networks, 
and the FCC has been a key partner in that effort.
    Mr. Chairman, as you said, the policy issues today are 
important, and LightSquared and the GPS dispute deserve our 
scrutiny. Several other House committees have already looked at 
this issue over the last 2 years, and so, as the committee with 
primary jurisdiction, I wish we had looked at it sooner, but I 
am glad we are going to hear from the FCC witnesses today. 
These are experts who are widely respected for their knowledge 
and expertise, and I know we can learn a lot from them.
    Mr. Chairman, in a lot of ways, the FCC was put in a no-win 
position. This was a difficult decision for them, and no matter 
what the agency did, someone was going to end up being very 
unhappy. And I don't know about you, but I certainly don't have 
the technical expertise and detailed knowledge to be in a 
position to second guess the FCC's decisions in this, but I do 
think we can look carefully at the FCC's decision-making 
process.
    And I think the committee's investigation has revealed a 
regulatory review process working as it should. LightSquared 
was licensed to use spectrum to provide communication service. 
Over the years, LightSquared sought approval from the FCC to 
move ahead with its plans, and at every step of the way, the 
FCC solicited and received public comment on the committee's 
proposals.
    Under both the Bush and Obama administrations, LightSquared 
received approvals from the FCC to create and modify its 
business plans to build a network.
    During the approval process, public safety concerns with 
GPS receivers were brought to the FCC's attention. The FCC 
warned LightSquared of these concerns and only gave a 
conditional approval to the company to move ahead. Then they 
set up a process to let technical experts determine if these 
concerns were meritorious. The FCC made the decision to retract 
LightSquared's waiver only after the experts found that ``there 
is no practical way to mitigate the potential interference.'' 
The FCC took the responsible steps that one would expect in 
order to address this problem.
    FCC clearly told LightSquared that it would have to solve 
interference problems before it was allowed to move forward 
with its plan. FCC set up a technical working group to explore 
problems and made sure that all stakeholders were represented. 
When experts concluded that there were continued risks from 
deployment of the LightSquared network, the FCC took 
preventative action to ensure public safety.
    As of today, LightSquared has offered alternatives to move 
ahead, and I hope they work, by the way. And the FCC remains 
open to exploring viable solutions.
    Now, Mr. Chairman, it is not Congress' role to make these 
kinds of detailed technical decisions. I don't have the 
expertise to do so, and nobody else on the committee does. That 
is why Congress gave the authority to the FCC in the first 
place.
    I would be concerned, of course, if the FCC made a 
politically-motivated decision or was swayed by political 
process, but I don't think anybody here thinks that that was 
the case in this situation. Instead, we have the FCC weighing 
the pros and cons and making a very difficult decision based on 
the advice of the technical experts.
    I appreciate our witnesses being here, Mr. Chairman.
    And I want to take just one minute of personal privilege. 
This might be the last hearing that we have in this Congress in 
the Oversight and Investigations Subcommittee, and I just want 
to say on a personal note how much I have enjoyed serving as 
ranking member with you, Mr. Chairman. We haven't always had 
calm and sedate hearings in this subcommittee, but we have 
always had respectful discourse, and we have always had debates 
and investigations that have attempted to shed the light on 
things.
    And I have said, probably you have heard me say every 
single hearing we have had, I have been on this subcommittee 
for 16 years, and I have enjoyed serving with all of my 
chairmen. This chairman is no exception. I know I can speak for 
the entire side of my aisle in wishing you God speed and all 
success in whatever you decide to do in the future, Mr. 
Chairman.
    And I yield back.
    [The prepared statement of Ms. DeGette follows:]
    [GRAPHIC] [TIFF OMITTED] 86420.007
    
    [GRAPHIC] [TIFF OMITTED] 86420.008
    
    [GRAPHIC] [TIFF OMITTED] 86420.009
    
    Mr. Stearns. Well, I thank my colleague. And she and I both 
know how much we have enjoyed our friendship here. And it is 
beyond just the hearing. And we have talked to each other on 
the floor many times, and we were friends even before I was 
chairman of this committee.
    So I appreciate your salute and felicitations, and I 
appreciate our friendship after I am gone, too.
    With that, let's recognize the two witnesses here. We have 
Ms. De La Torre, who serves as Chief of the International 
Bureau at the Federal Communications Commission. She previously 
served as Deputy Chief of the Telecommunication Division of the 
International Bureau. She was president of Telecommunication 
Management Company in Washington, DC. And she has a B.A. from 
Vanderbilt and a doctor's from the University of Texas.
    We have Mr. Julius Knapp. He is Chief of the FCC's Office 
of Engineering and Technology. He became Chief in 2006, having 
previously served as Deputy Chief since 2002. He has a 
bachelor's degree in electrical engineering from the City 
College of New York.

STATEMENTS OF JULIUS P. KNAPP, CHIEF, OFFICE OF ENGINEERING AND 
TECHNOLOGY, FEDERAL COMMUNICATIONS COMMISSION, AND MINDEL DE LA 
  TORRE, CHIEF, INTERNATIONAL BUREAU, FEDERAL COMMUNICATIONS 
                           COMMISSION

    Mr. Stearns. At this point, let me swear each of you in 
here. As you know, the testimony you are about to give is 
subject to Title 18, Section 1001, of the United States Code. 
While holding a hearing--when holding an investigative hearing, 
this committee has the practice of taking testimony under oath.
    Do you have any objection to testifying under oath?
    The Chair then advises you that, under the Rules of the 
House and the rules of the committee, you are entitled to be 
advised by counsel.
    Do you desire to be advised by counsel at this time?
    In that case, would you please rise and raise your right 
hand, and I will swear you in.
    [Witnesses sworn.]
    Mr. Stearns. We now welcome your opening 5-minute 
testimony. Start with you, Ms. De La Torre. OK. Mr. Knapp, go 
ahead.

                  STATEMENT OF JULIUS P. KNAPP

    Mr. Knapp. Good morning Chairman Stearns, Ranking Member 
DeGette and members of the Oversight and Investigations 
Subcommittee. My name is Julius Knapp and I am the Chief of the 
Federal Communications Commission's Office of Engineering and 
Technology where I have served for 38 years. OET is the 
commission's primary----
    Mr. Stearns. Would you just pull the mic a little closer?
    Mr. Knapp. OET is the commission's primary resource for 
engineering expertise and provides technical support to the 
chairman, commissioners and the FCC's bureaus and offices. I 
appreciate this opportunity to join my colleague, Mindel De La 
Torre, chief of the International Bureau in appearing before 
you today. My portion of the testimony will focus on the FCC's 
role in evaluating and attempting to resolve spectrum 
interference issues in connection with the mobile satellite 
service in the L-band.
    Ms. De La Torre will address the process in historical 
context relating to granting Ancillary Terrestrial Component, 
or ATC, authority to mobile satellite or MSS providers. At the 
commission, we are focused on ensuring that businesses and 
consumers are able to take full advantage of the economic 
opportunity presented by underutilized spectrum but only when 
consistent with public health and safety. In its decade-long 
proceeding to remove regulatory barriers and align the service 
rules for the L-band with the rapid evolution of mobile 
communications technologies and markets, the commission 
considered a unique proposal that had the prospect of 
attracting new investment, increasing competition, bringing 
additional broadband service to rural and hard-to-reach regions 
and creating thousands of jobs.
    This proposal was the direct result of proceedings designed 
to ensure that MSS spectrum would be utilized to its full 
potential. As with any proceeding before the commission that 
has a potential for spectrum interference with nearby spectrum 
users, the FCC relies on licensees and stakeholders to raise 
any relevant interference concerns. During the decade preceding 
the LightSquared November 2010 waiver request, the GPS industry 
had numerous opportunities to inform the commission of the 
receiver overload issue. Despite participating extensively 
throughout these proceedings and raising other interference 
issues that were ultimately resolved, it did not do so.
    The FCC would have investigated any potential interference 
issues as soon as they were raised and attempted to resolve 
them. Nevertheless, once GPS receiver manufacturers and service 
providers ultimately informed the commission of the potential 
for interference to legacy devices, the commission halted the 
licensees' proposed commercial service.
    To be clear, in November 2010, the GPS industry was not 
complaining about signals from LightSquared signals falling 
into the GPS band; they were instead notifying us that GPS 
receivers would pick up signals far into the neighboring band. 
In responding to those GPS concerns, the commission acted 
responsibly under its 70-year memorandum of understanding with 
the Department of Commerce to protect national security and 
public safety, while simultaneously attempting to find a 
solution to the GPS receiver overload issue. The commission's 
goals and proceedings such as these are to foster cooperative 
engineering solutions to what sometimes seemed to be impossible 
problems. We worked equally with all of the interested 
entities, including NTIA, the Department of Defense, other 
Federal agencies and the GPS Industry Council to assess 
LightSquared's proposal and to encourage the parties to work 
together to resolve this matter. This process has been fact-
based, transparent and in accordance with the commission's 
established policies and procedures.
    Now, as I have mentioned in this instance the interference 
is caused by GPS receivers picking up signals outside of the 
GPS band. The commission relies on receiver manufacturers and 
service providers to report potential interference issues 
because they are in the best position to understand the 
parameters and limitations of their own equipment. The 
commission does not possess the technical specifications for 
the hundreds of different types of GPS devices utilized by 
commercial users, government contractors and government 
entities.
    Moreover, since the FCC does not regulate GPS devices we 
are not prepared to test such devices or determine their 
capabilities and interference issues. Manufacturers and service 
providers have the relevant information, and they also have the 
incentive to notify the commission of the potential for 
receiver overload, so as to avoid problems with their services 
and products. The lack of technical data provided in response 
to earlier commission proceedings prevented us from addressing 
that issue until well after permission had been granted in 2003 
for MSS providers to use the L-band for terrestrial service.
    Again, thank you for this opportunity to appear before you 
and I look forward to your questions.
    Mr. Stearns. Thank you.
    Ms. De La Torre.

                STATEMENT OF MINDEL DE LA TORRE

    Ms. De La Torre. Good morning, Chairman Stearns and Ranking 
Member DeGette and members of the Oversight----
    Mr. Stearns. You might have to pull the mic just a little 
closer, too, if you don't mind.
    Ms. De La Torre. Good morning.
    My name is Mindel De La Torre, as we have said, and I am 
Chief of the International Bureau at the FCC. I am pleased to 
have this opportunity to follow my esteemed colleague Julius 
Knapp in providing you the background and context related to 
the FCC's process in the MSS ATC L-band matter.
    I have been Chief of the International Bureau since October 
2009, where I oversee the Bureau's functions with regard to 
licensing of international and domestic satellites, 
international long distance, international broadcast stations 
and submarine cables, as well as the FCC's participation in 
bilateral and multilateral efforts.
    I previously worked at both the NTIA and the FCC, and I 
appreciate the two distinct roles that these agencies play in 
ensuring adequate spectrum for America's consumers and 
governmental entities. As my colleague mentioned, the 
commission is focused on lifting regulatory barriers and 
ensuring economic growth.
    The MSS ATC L-band proposal, filed with the International 
Bureau in March 2009, represented such an opportunity. However, 
when we were informed that there was a potential for receiver 
overload interference from the GPS community, we took action to 
ensure that these essential U.S. services, government services 
as well as commercial activities, would not be disrupted. The 
detailed summary in my written statement and the attached 
appendix outline the commission's 10-year history in the MSS 
proceeding.
    The commission has consistently, across the tenures of 
three chairmen, worked to promote terrestrial use of MSS 
spectrum. This history further shows that the commission acted 
in accordance with established procedures and allowed multiple 
opportunities for public participation. Also, the commission 
staff exercised delegated authority only where consistent with 
commission rules and provided at least 48 hours advanced notice 
to individual commissioners to inquire about these decisions.
    The proceedings relevant to this hearing began in 2001, 
when LightSquared's predecessor in interest, Mobile Satellite 
Ventures, MSV, along with ICO Global, petitioned the commission 
to allow for the addition of an ancillary terrestrial 
component, ATC, to integrate terrestrial services with their 
mobile satellite services. These parties argued to the public 
that the public would benefit from the terrestrial component 
because it would enhance coverage in areas where reliable 
satellite service was challenging. In 2003, the commission 
approved rules to permit MSS licensees to operate up to 1,725 
base stations, and in 2005, this limitation was lifted to 
provide mobile service to areas where satellite signals are 
degraded or blocked, specifically urban areas and inside of 
buildings.
    The U.S. GPS Industry Council filed the petition for 
reconsideration of the out-of-band emission rules noting, that 
the rules failed to adopt emission limits specified in the 2002 
agreement. USGIC noted that the limits were necessary to 
protect against potential deployment of tens of thousands of 
cell towers and millions of mobile devices. The receiver 
overload issue, however, was not raised in this proceeding.
    Over the course of the next 8 years, the commission engaged 
in several actions designed to foster MSS ATC deployment. The 
record shows that the GPS industry consistently failed through 
several proceedings to specifically notify the FCC of receiver 
overload problems or concerns until briefly referencing the 
issue in comments related to the July 2010 MSS Notice of 
Proposed Rulemaking and Notice of Inquiry and then again in 
response to the November 2010 waiver request.
    In the interim, the commission provided MSS ATC authority, 
set power limits and other operating parameters, as well as 
acted on the transfer applications ultimately leading to 
LightSquared's status as a licensee. On January 26, 2011, the 
International Bureau responded to the concerns raised by the 
GPS industry and other parties by preventing LightSquared from 
deploying commercial service in the L-band until it resolved 
concerns about harmful interference. The Bureau did so through 
a conditional waiver order that also directed LightSquared to 
organize and participate in a GPS Interference Technical 
Working Group, in which all interested parties worked directly 
with LightSquared to resolve the interference concerns. The 
Technical Working Group included more than 120 participants, 
including representatives from the Department of Defense and 
other Federal agencies, as well as the GPS community and 
various telecommunications companies and, of course, 
LightSquared itself.
    On June 30, 2011, LightSquared filed a final report of the 
Technical Working Group with the commission. And based on these 
results, LightSquared recognized that in its proposed use of 
part of its spectrum, what we call the upper 10 megahertz band, 
would result in GPS receiver overload. LightSquared offered an 
alternative proposal to operate only in the lower 10 megahertz 
band and to coordinate and share the cost of underwriting a 
workable solution for GPS legacy precision measurement devices 
that were at risk of overload.
    The FCC released a Technical Working Group's report as well 
as LightSquared's alternative proposal for public comment in 
June 2011 and subsequently required further testing. On 
February 14, 2012, the commission received a letter----
    Mr. Stearns. If you could just sum up.
    Ms. De La Torre. OK. And so the commission staff is 
currently reviewing the extensive record developed in response 
to the public notice. Currently, LightSquared still cannot 
deploy its service commercially because of the unresolved 
receiver overload interference issue. And this concludes my 
testimony.
    [The prepared statement of Mr. Knapp and Ms. De La Torre 
follows:]
[GRAPHIC] [TIFF OMITTED] 86420.010

[GRAPHIC] [TIFF OMITTED] 86420.011

[GRAPHIC] [TIFF OMITTED] 86420.012

[GRAPHIC] [TIFF OMITTED] 86420.013

[GRAPHIC] [TIFF OMITTED] 86420.014

[GRAPHIC] [TIFF OMITTED] 86420.015

[GRAPHIC] [TIFF OMITTED] 86420.016

[GRAPHIC] [TIFF OMITTED] 86420.017

[GRAPHIC] [TIFF OMITTED] 86420.018

[GRAPHIC] [TIFF OMITTED] 86420.019

[GRAPHIC] [TIFF OMITTED] 86420.020

[GRAPHIC] [TIFF OMITTED] 86420.021

    Mr. Stearns. Thank you.
    And I will start with my questions.
    And Ms. De La Torre, I am going to ask you a question. If 
possible, you could just answer yes or no. In an August 4, 
2011, email, marked as Exhibit 1 in your binder, you made an 
analogy that a LightSquared GPS situation determining 
interference, the interference dispute on the highway, where 
LightSquared is operating--and this is what you indicated--is 
operating in the left lane and GPS is operating in the middle 
lane; you state that GPS ``has been driving in the left lane 
with impunity, but now that it looks like the left lane might 
actually have traffic in it, the GPS community is yelling 
bloody murder.'' Is that true? Is that what you wrote?
    Ms. De La Torre. I did write that.
    Mr. Stearns. Each operator has responsibility to stay in 
its lane, using your analogy. Is that correct?
    Ms. De La Torre. Yes.
    Mr. Stearns. And when one operator veers into the adjacent 
lane, is it the responsibility of that operator to correct its 
course, or is it the role of the FCC to patrol the highway, 
briefly?
    Ms. De La Torre. Really what was happening here was that--
--
    Mr. Stearns. Isn't the responsibility of the operator to 
correct its course, yes or no?
    Ms. De La Torre. That is a difficult question. That is the 
question that is before us.
    Mr. Stearns. Yes or no.
    Ms. DeGette. Can't you let her answer it?
    Mr. Stearns. No. I am asking for a yes or no. Do the best 
of your ability?
    Ms. De La Torre. Well, I think that they do have a duty to 
respond.
    Mr. Stearns. OK. I am going to take that as a yes.
    Does GPS companies have a duty to design receivers that 
filter out signals in adjacent bands, yes or no?
    Ms. De La Torre. I will let Mr. Knapp, who is the engineer, 
answer that question.
    Mr. Stearns. Well, you can answer, too. Based upon your 
email, I would say your answer would be yes; they have a duty 
to design receivers that filter out signals in adjacent bands, 
is that correct? Say yes.
    Ms. De La Torre. Yes.
    Mr. Stearns. OK.
    Mr. Knapp, I am ready for you now. You state in your 
testimony, some GPS legacy equipment effectively treats the GPS 
spectrum and the L-band spectrum as one band, is that true?
    Mr. Knapp. That is true.
    Mr. Stearns. Since the problem appears to be GPS devices 
and not LightSquared's emission, what does this mean for the 
future of the L-band?
    Mr. Knapp. So the difficult issue we have is all of the 
millions of legacy devices that are out there relied on for 
things like public safety and so forth, and there is no easy 
way to fix many of them. So we absolutely do need to be 
thinking about what we do going forward, and we are doing just 
that.
    Mr. Stearns. If GPS does not make changes to its wide 
front-end receiver devices, do you envision a scenario where 
anyone can operate in the L-band in the future?
    Mr. Knapp. I think what we are trying to do----
    Mr. Stearns. If they do nothing is the L-band available?
    Mr. Knapp. Well, for the high power equipment that has been 
proposed, the issue of the upper 10 is problematic; the lower 
10, I think, is still subject to our open proceeding.
    Mr. Stearns. But wouldn't you say, based upon what I just 
said, that this L-band is going to be in jeopardy if there is 
not some type of effort by GPS to make changes to its front-end 
receiver? Isn't that true?
    Mr. Knapp. What we need to do----
    Mr. Stearns. Yes or no.
    Mr. Knapp. It would be yes.
    Mr. Stearns. OK, yes.
    Ms. De La Torre, one day after receiving LightSquared's 
updated business plan and request for a waiver of the 
integrated services rule on November 18, 2010, the FCC placed 
the request on public notice providing a 10-day period for 
initial comments. How many days does the FCC normally provide 
for comments after issuing a public notice for an ATC 
modification request?
    Ms. De La Torre. Anywhere from 7 to 21 days.
    Mr. Stearns. Was the expedited comment period relating to 
the FCC's March 2010 order requiring that LightSquared follow 
an aggressive build-out schedule for its network?
    Ms. De La Torre. Well, they had--the proceeding, as I 
mentioned, has been going on since 2001, so there was a lot of 
documents in the record, so we put it out for public notice.
    Mr. Stearns. Did anyone request an extension of the comment 
period, and if so, who and was the request granted?
    Ms. De La Torre. Yes, there was a request for extension, 
and we did grant that extension. We granted the extension for 3 
days.
    Mr. Stearns. Did the parties requesting an extension have a 
chance to actually file their comments in the proceedings?
    Ms. De La Torre. Yes, they did.
    Mr. Stearns. There are many concerns I have with the 
process, but the greatest concern that I have is that your 
agency, acting only on one day after the NTIA sent their 
comments to the FCC, rushed through a public notice that would 
put LightSquared in regulatory limbo with no alternative in 
sight. Can you explain to me why the FCC did not first look to 
alternatives, short of proposing to suspend the company's 
licenses?
    Ms. De La Torre. What we wanted to do is we wanted to get 
public comment as much as we possibly could on this important 
report that we had gotten from NTIA and the letter from NTIA. 
We wanted to get as much comment as we possibly could, so we 
put it out as soon as we could.
    Mr. Stearns. But acting only one day after NTIA sent their 
commitment to the FCC, it seems like you rushed it.
    Ms. De La Torre. I don't know that we rushed it, but we 
were definitely--we wanted to get as much information as we 
possibly could.
    Mr. Stearns. I am anxious for the FCC to reach a conclusion 
on this matter and continue to hope a solution can be found. 
When do you plan to wrap up your review of your February public 
notice?
    Mr. Knapp. So we don't have a specific target. It is a 
complex issue and LightSquared has put some new ideas on the 
table, and we think everything is worth considering at this 
point.
    Mr. Stearns. All right. My time is expired.
    Ms. DeGette. Thank you very much, Mr. Chairman.
    Ms. De La Torre, I just want to clarify your answers to the 
previous questions. This memo, this August 4, 2011, memo, 
Exhibit 1, that the chairman was referring to, I think it would 
be fair to say that what happened here was that the spectrum 
was allocated in a certain way, so that the GPS had a certain 
portion of the spectrum, correct?
    Ms. De La Torre. Yes, that is correct.
    Ms. DeGette. And LightSquared had been approved 
conditionally for portions of the spectrum that were adjacent 
to the GPS portions, correct?
    Ms. De La Torre. Yes. Dating back to 2004.
    Ms. DeGette. Yes. And after the conditional approval, the 
GPS community came forward belatedly and told the FCC that they 
were concerned because they were actually going into portions 
of the spectrum that LightSquared had been conditionally 
approved to use, is that correct?
    Ms. De La Torre. There had been an order that had been--the 
transfer of control order from SkyTerra to Harbingerhad been 
issued the year before in March 2010. And with that order, 
there was another accompanying order that modified the license. 
And so that had happened earlier in the year.
    Ms. DeGette. But you were frustrated when you wrote this 
memo because the GPS folks were supposed to stay, as you said, 
in their lane, but they consistently went over into the other 
lanes that had been conditionally authorized for others, right? 
Yes or no would work with this one.
    Ms. De La Torre. Yes.
    Ms. DeGette. Thank you.
    But you also recognized in this memo, and the part that the 
chairman didn't refer to, that the problem here is that GPS--
and I want to ask you about this, too, Mr. Knapp, because there 
had been some glancing references to it--but this GPS wave 
length is very important, security wise, is that right?
    Mr. Knapp. Absolutely.
    Ms. DeGette. So, Mr. Knapp, in your testimony, you said 
that there are concerns about national security and safety with 
GPS, is that right?
    Mr. Knapp. Of course.
    Ms. DeGette. And Ms. De La Torre, at the end of your memo, 
you say, ``this is a very complicated issue and tough choices 
will need to be made and may in fact change the established 
rules of the road, but how many times do we have to reiterate 
we will not endanger one person on an airplane, one soldier, 
one voter or one driver who relies on your GPS service.'' Is 
that what you said in the memo?
    Ms. De La Torre. Yes, I did.
    Ms. DeGette. And that is because, even though it is 
irritating that maybe GPS is not staying in their lane, if you 
literally hold them to that and there is some problem with this 
GPS, then it could affect national security communications or 
transportation, like airplane communications, is that correct?
    Ms. De La Torre. Yes.
    Ms. DeGette. Mr. Knapp.
    Mr. Knapp. Yes.
    Ms. DeGette. OK. So I can see why you would be frustrated, 
because poor LightSquared, you know, they got this conditional 
approval, and through no fault of their own, the GPS is going 
over into their lane. And I think that is why your review 
process is still open, because you are still trying to find a 
solution to it; is that correct Ms. De La Torre?
    Ms. De La Torre. Yes, absolutely.
    Ms. DeGette. And so here is my question: I know that 
LightSquared has come forward with some other proposals to use 
different parts of the spectrum and so on. Are you considering 
those other proposals right now?
    Ms. De La Torre. Yes. As Mr. Knapp said, yes, we are 
currently considering them.
    Ms. DeGette. Mr. Knapp.
    Mr. Knapp. If I may, I should add that several of those 
proposals include spectrum that is used by the Federal 
Government, so the Federal side, NTIA, would have the lead in 
determining whether those are viable.
    Ms. DeGette. In order to make that determination, do you 
need congressional action?
    Mr. Knapp. No. At this juncture, I can't project whether 
that would be necessary or not, but certainly we would come 
back if that seemed to make sense.
    Ms. DeGette. OK. So it is not like, and either one of you 
can answer this, it is not really like the FCC is trying to 
arbitrarily sabotage this investment that LightSquared has 
made, which is substantial, correct?
    Mr. Knapp. Absolutely not.
    Ms. DeGette. And in fact, you are still trying to find a 
solution, is that right?
    Mr. Knapp. That is right.
    Ms. DeGette. OK. I don't have any more questions.
    Thank you, Mr. Chairman. I yield back.
    Mr. Stearns. You have got one second left. Do you want to 
ask him, is there a solution?
    Ms. DeGette. You can ask him.
    Mr. Stearns. I will take your one second. Is there a 
solution?
    Mr. Knapp. There are ideas worth considering.
    Mr. Stearns. So the answer to the question is, yes, there 
is a solution.
    Mr. Knapp. Yes.
    Mr. Stearns. OK. Thank you.
    With that, I recognize Dr. Burgess for 5 minutes.
    Mr. Burgess. Thank you, Mr. Chairman.
    Now, Mr. Knapp, you said ``worth considering'' twice, so it 
is intriguing. This is an enormously complex issue made even 
more complex. By now I have got mental images of double wides 
and winding mountain roads. But I think that is really what the 
committee is asking is about a solution and a solution where 
both parties can actually come away with something, neither 
party is harmed to the extent that they can be kept from harm, 
and we don't tread upon the rights of other people who have 
reasonable uses for spectrum that already exists; is that a 
fair statement?
    Mr. Knapp. That is a fair statement.
    Mr. Burgess. Well, then, in the things that you have----
    Mr. Stearns. Dr. Burgess, can you just pull your mic up a 
little bit, just so it is easy to hear you. We are waiting on 
every word you say, so we have got to hear it.
    Mr. Burgess. Well, in that context of having things that 
are worth considering, surely you have some solutions that you 
have been pushing back and forth between yourselves at the FCC. 
Is there any of those that you are willing to share with the 
committee this morning?
    Mr. Knapp. Not specifically. I will say that it is not only 
this immediate issue, but we also think long term about the 
implications for use of the spectrum because of the spectrum 
crunch and the importance of getting every ounce of benefit out 
of all of the spectrum that we possibly can.
    Mr. Burgess. And we certainly bump up against this from 
time to time in this committee because of the fact that the 
spectrum is a valuable asset owned by the People of the United 
States. The government is in a cash crunch, so sometimes, we 
actually go to spectrum as a solution.
    Let me just ask a couple process questions of both of you, 
and I referenced this in my opening statement, the comment 
period before the issuance of the conditional waiver. It does 
seem to be condensed, especially when you are dealing with an 
issue of this complexity. Is that a fair observation for me to 
make? And bear in mind I am just a simply country doctor; I am 
not an engineer. So it seems like you drop it before 
Thanksgiving or between Thanksgiving and Christmas. It looks 
like Harry Reid's health care bill to me. That is not a time 
where a lot of people are paying attention.
    Mr. Knapp. If you view this in the broader context of the 
long history of the proceeding, we had a commission rulemaking 
proceeding that set out the policies that were to apply here. 
What the staff was doing was just implementing those policies. 
There already was provisions for a substantial terrestrial 
network. And if you look at what action was actually taken, we 
took the very tough step of saying that the system could not be 
operated commercially until this issue was resolved. And we put 
in place a process to understand the scope of the problem and 
try to find a way to get solutions to it. So although the 
specific timeframe of the action may have appeared in isolation 
as short, what we were doing was moving as quickly as we could 
through the process to find an answer.
    Mr. Burgess. And yet some of the principals involved, the 
GPS industry, the Air Force, did seem to feel that there was 
inadequate time, did they not? Did they not express that to 
you?
    Mr. Knapp. So what we did in the action, they had asked 
that we needed time for further tests, so the process we put in 
place did just that. And we made sure that those parties were 
all engaged, and they were engaged heavily in the process of 
conducting the tests and examining solutions.
    Mr. Burgess. But then there was an extension granted, is 
that correct?
    Mr. Knapp. There was an extension of time for the comments.
    Mr. Burgess. For the comments.
    Mr. Knapp. Yes, absolutely. And it was all considered, and 
it resulted in the action that the agency took.
    Mr. Burgess. And refresh my memory, how long was the 
extension of the comment period?
    Ms. De La Torre. It was 3 days.
    Mr. Burgess. Again, I am just a simple outside observer. 
For an issue of this complexity, did the parties who complained 
about the length of the comment period, were they mollified by 
a 3-day extension.
    Ms. De La Torre. Well, they did in fact file comments in 
the proceeding, and they came in and they had various meetings 
with us during that time. So there was plenty of time for them 
to meet and to give us their views on the proceeding.
    Mr. Burgess. Well, just as an outside observer across the 
street, 3 days doesn't seem like a lot of time for an issue of 
this complexity. I appreciate the fact it had been worked on 
for a long time and a lot of people had much more working 
knowledge on this than I do, but it does seem condensed. What 
did they relate to you when you said, OK, you got 3 more days? 
Did they say, this is great, that is all we needed?
    Ms. De La Torre. Well, what I recall is that they in fact 
did file within that period. And then they had plenty of time 
to come in before the waiver order was issued in January. So 
they had many weeks to come in. They took advantage of that 
time. We heard their concerns. In fact, as Mr. Knapp said, the 
action that we took, took direct consideration of what they had 
raised with us. And we basically stopped LightSquared from 
going forward with commercial deployment of its system until 
the interference concerns were resolved. Now, we did not 
resolve those.
    Mr. Burgess. Can I stop you here for a second? I know my 
time is up. But it seems like the interference questions 
haven't been resolved even at this stage. Am I understanding 
that correctly?
    Ms. De La Torre. You are. And that is one reason why 
getting the process started as soon as possible was really 
important. We wanted to get that started and get all the 
parties together.
    Mr. Burgess. Thank you, Mr. Chairman.
    I appreciate the indulgence.
    Mr. Stearns. And the gentlelady from--oh, Mr. Bilbray was 
here.
    I think Mr. Bilbray is next for 5 minutes.
    Mr. Bilbray. Thank you, Mr. Chairman.
    Mr. Chairman, let me first clarify; I have got a personal 
stake in this. Any one of us that go off into the ocean with 
our families offshore know how important the GPS is, not just 
for aircraft, not just for finding our way around streets, but 
basically getting home and making sure you don't run into some 
rocks.
    On the flip side, if I may say to the ranking member, just 
as much as the GPS is essential, there are thousands of people 
offshore every day that would have a huge safety factor if they 
could pull up their iPhone and from 200 miles offshore to be 
able to call for emergency services. So this has a safety issue 
going from both ways.
    But I think this is a much bigger issue than just GPS or a 
new access into the LightSquared. And if I could say to the 
ranking member, we need to recognize that this is setting the 
message across the country and around the world of exactly how 
the Federal Government is going to handle the situation. And if 
we do not straighten this out, the alternative is for us to 
have an intransigent locked-in system that says, nope, we won't 
allow anyone to move outside any arbitrary lines we make 
because once you cross those lines, we know we can't get you 
back. And I will give you an example, an analogy: This is like 
somebody using a passing lane or going into the other lane to 
pass. We do that all over this country. But once you start 
allowing people to claim a right for using a right of way that 
was not set aside for them, the only alternative is to 
eventually for the government to put up regulatory jersey walls 
to where that option is no longer available in the future. Even 
though no one is using that lane 99 percent of the time because 
we won't enforce it when somebody wants to use the lane, we 
have got to block it off, and that asset is not going to be 
used with flexibility. We are going to become intransigent at 
bureaucratic lines. So I think that we have got to recognize 
this issue was very strongly setting an example to the next 
group that bids on something, are we going to apply it and be 
flexible and thus when the time comes, are we going to 
implement it, or are we going to create the barriers. Isn't 
this a situation of squatting and squatters' rights, and how do 
we tell anybody when they do bids, that there is not going to 
be a squatter sitting on their spectrum if we don't straighten 
this thing out and make it clear to everybody that the Federal 
Government will make you whole and will not allow squatting to 
supersede the due process that we set aside? How do we avoid 
that?
    Mr. Knapp. Well, first of all, as we conduct our processes, 
they are open, and it is incumbent on all the parties to 
participate in that. This situation has been, in my 38 years at 
the FCC, an anomaly. Almost invariably, the parties come in and 
explain----
    Mr. Bilbray. OK. When the parties explain this--let me 
interrupt one second. When they talk about interference, are 
you saying, wait a minute, is there interference, or is there--
does the--is it harmful interference? There is one thing to 
have static with GPS. There is something else to be blocking 
the GPS. Isn't it true that the, quote-unquote, interference 
may not be harmful interference that would block the item. It 
may give some difficulty but still won't be able to block the 
service; the service still gets through with GPS. Isn't that 
true?
    Mr. Knapp. This is one of the issues that has been raised, 
and it is one of the core issues that the commission routinely 
has to address in deciding whether interference is harmful or 
not. We also have to take into account, when we are dealing 
with public safety services or defense, a much higher threshold 
for ensuring against problems.
    Mr. Bilbray. OK. There is the problem. We are now creating 
the issue of that we will go so far because we think it is a 
public safety issue, and once you name that, if somebody that 
has run police departments and sheriff departments, the 
question is, does that become now the excuse to use that lane 
all the time, even without a red light running, even though it 
is not a code three, because we are public safety, we get to 
drive in the left lane all the time, without having to show 
that there was reasonable application here? And that is what I 
am concerned about. And let me tell you something, as someone 
has run police departments, that happens all the time, you 
know. But we don't sit there and continue to allow it just 
because somebody claims it. They need to prove it. And that is 
that harmful interference. When will you get that clarified, 
and what is your obligation to make sure that we make this 
whole so this Congress and future Congresses don't have to 
start building jersey walls and blocking off all kinds of great 
flexible opportunities because we have seen what happened with 
LightSquared, so we are not going to allow any flexibility in 
the future? How do we maintain that flexibility?
    Mr. Knapp. So this issue I think has given greater focus to 
receivers and the issue of staying in your lane. And we 
conducted a workshop at the commission on addressing receiver 
standards going forward. Just this past March, we have tasked 
our Technological Advisory Committee, which includes experts 
across industry, to make recommendations on how we can deal 
with these kinds of issues in the future as we are making 
spectrum allocation, so we are working on it.
    Mr. Bilbray. Thank you very much.
    Mr. Chairman, what he just told me is, now, they are going 
to be harder and put up a jersey--basically block it off, that 
flexibility to avoid this problem. That is exactly what I want 
to avoid, and that is why we should be working to straighten 
this out so they don't have to start putting up those jersey 
walls, and we maintain our flexibility. I think both sides want 
that.
    I yield back.
    Mr. Stearns. I thank the gentleman for his insight.
    And the gentlelady from Tennessee, Mrs. Blackburn, is 
recognized for 5 minutes.
    Mrs. Blackburn. Thank you.
    And Mr. Chairman, I do want to take a moment and just thank 
you for your leadership. You are going to be missed. We are all 
going to miss you and appreciate the leadership and guidance 
you have given this committee on so many issues.
    To our witnesses, we are going to have votes called in just 
a few minutes, and I want everyone to have the opportunity to 
get through their questions. I want to talk with you 
specifically about your February 10th memo, or it is an email 
from February 10th, and the March 26, 2010, order dealing with 
preventing SkyTerra from making its ATC spectrum available to 
AT&T and Verizon.
    So let's start, Ms. De La Torre, with you with that 
February 10th email from Joel Rabinovitz. You are on that 
email, correct? You are a recipient of that? It is Exhibit 9 in 
your binder.
    Ms. De La Torre. Yes, I was aware of that.
    Mrs. Blackburn. Would you please speak into the microphone?
    Ms. De La Torre. Yes, I am on that email, but I wasn't 
participating in the email as far as sending, responding to it. 
I am on it, though.
    Mrs. Blackburn. OK. But you read in there that, and I am 
quoting from the email, the condition is that Harbinger not 
sell to Verizon and AT&T. So is this email consistent with your 
thoughts regarding the purposes of the conditions?
    Ms. De La Torre. Thank you, Congresswoman.
    In fact, where we ended up was not where the email started 
actually. We ended up--there was a loophole in the FCC's sort 
of framework for secondary markets of spectrum. And terrestrial 
systems at the time could use secondary markets, and they could 
lease their spectrum, but MSS operators could not. And so one 
of the reasons that we had wanted to put this condition in on 
AT&T and Verizon, it didn't prohibit them from actually gaining 
access to that spectrum, but it said that the FCC needed to be 
notified of that. And I think that that just basically filled 
in a gap in our rules that we then actually changed the rules 
later in the following year, in April 2011, to apply it to the 
mobile satellite service as well. So AT&T and Verizon, just to 
be clear, were not prevented from actually accessing that 
spectrum; they just had to give notification of that.
    Mrs. Blackburn. OK. Well, let me ask you this then. Do you 
think it should be common practice for the FCC to impose 
conditions like this when it really--so that it affects the 
rights of nonparties to a proceeding? Should that be common 
practice of the FCC? Should they move forward in that vein?
    Ms. De La Torre. I have been at the commission for 3 years, 
and during that time, in most of the transactions that we have 
worked on, we have conditions that are applied. And they are 
specific to the particular transaction, and I think that is 
what we did here as well.
    Mrs. Blackburn. OK. Let's talk about Globalstar for a 
second. I have got a couple of questions I wanted to ask about 
that. On June 30, 2010, the FCC granted Globalstar an extension 
of its deadline to come into compliance with the ATC gating 
criteria until August 2nd of 2010. Despite the fact that the 
FCC granted Global Star's 30-day extension the RUS suspended 
Open Range's future loan advances on July 14, 2010, and 
threatened to suspend its remaining funds unless it found an 
alternative spectrum partner. So, during this period, were 
there any conversations between the FCC and RUS or the FCC and 
the White House discussing the possibility that LightSquared 
could serve as an alternative spectrum partner to Open Range?
    Ms. De La Torre. Thank you, Congresswoman.
    I was not a party to any of those conversations. If they 
were held, I was not a party to them.
    Mrs. Blackburn. Were you aware that there were any?
    Mr. Knapp, do you want to respond to that?
    Mr. Knapp. I just wanted to add that neither was I.
    Mrs. Blackburn. OK. You were not a party to them or you 
were not aware that they were taking place?
    Mr. Knapp. I was not aware that they were taking place.
    Ms. De La Torre. Either one.
    Mrs. Blackburn. Thank you.
    My time is expired. I yield back.
    Mr. Stearns. I thank the gentlelady.
    And the gentleman from Virginia, Mr. Griffith, is 
recognized for 5 minutes.
    Mr. Griffith. Thank you, Mr. Chairman.
    Let me echo the comments of my colleagues on how much I, 
particularly as a freshman, have appreciated your leadership, 
and I have learned a great deal from you, and I am kind of 
hopeful we will have some more hearings. But in the event that 
we don't, let me add my comments to those of my colleagues and 
how greatly I appreciate your leadership. Thank you.
    That being said, if I might ask, how does the FCC define 
harmful interference? And let me do some subparts on that. Is 
the level of harmful interference specific to each GPS device, 
or is there a particular industry standard that defines whether 
interference is harmful? Is any interference harmful? Who makes 
the decision at what level it is harmful? Is that the FCC or is 
that the GPS device manufacturer or user? And is the design of 
the receiver relevant to the determination of harmful 
interference? And be happy to repeat the subparts if you need 
me to. But the base question is, how do you determine harmful 
interference, and who makes those decisions?
    Mr. Knapp. First, I would be more than happy to provide the 
precise language of the definition in the commission's rules. 
It is consistent with the international definition. It 
generally, in lay terms, is, it is subjective. It talks about 
repeated disruption of a service, particularly in the context 
of safety and navigation services as well. So the definition 
itself gives deference to the importance of protecting safety 
services.
    In the case of GPS, there are multiple kinds of receivers. 
So, in some instances, there are industry standards. So, for 
example, for the GPS chips that are used in cell phones for 911 
location, there are industry standards that are in place. As 
commented, I think in the letter that we received forwarding 
the test results from NTIA, there is no accepted standard for 
general navigation equipment. There is a standard for 
aeronautical, and so I will stop there. So, in some cases, 
there are standards and others not, and the criteria for 
determining what is helpful is not always consistent. Is there 
a question I missed?
    Mr. Griffith. Yes. How is the filter designed relevant to 
that----
    Mr. Knapp. Filter design comes into play usually at the 
intersection between two adjacent bands. So it is not unusual 
to have some play, some flexibility, between the services right 
at the borders. And normally, those problems are solved between 
the parties themselves. We have to look at the overall 
characteristics of the equipment and the service and what it is 
capable of doing in making decisions like this as to what is 
harmful or not.
    Mr. Griffith. And this is one that has always got to bother 
you, and for centuries, the law has tried to figure out on 
different items how to make this work. But the FCC has relied 
on the fact that no party raised the overload interference 
issue until late 2010 to account for its late consideration by 
the FCC. And I have to ask, what standards of timeliness does 
the FCC have? I mean, oftentimes, if you don't raise an 
objection in other areas of the law, you lose them, and whether 
it is the statute of limitations or the theory of latches, you 
have a timeliness issue. So what is the FCC's rule on that?
    Mr. Knapp. So we are governed by the public interest 
standard. And in this case, although it is a very difficult 
situation, we cannot put at risk things like air safety or 
defense or 911 systems and so forth. So we have to be very 
careful when we evaluate those kinds of situations.
    Mr. Griffith. Mr. Chairman, I have no further questions at 
this time and yield back.
    Mr. Stearns. I thank the gentleman. I think what we are 
going to do is I am going to have a second round, and the 
ranking member has a very short question, too, and then we will 
adjourn the committee.
    So my question is to Mr. Knapp. Obviously, a company has 
lost $4 billion, a huge amount of money. The technology they 
had was a game changer. The whole thing has been scuttled. And 
so what we are trying to do now is understand what solutions 
are available.
    So, Mr. Knapp, the Technical Working Group and the PNT 
ExCom both conducted interference testing on multiple types of 
GPS devices. Is that correct, yes or no?
    Mr. Knapp. Yes.
    Mr. Stearns. How many different types of GPS receivers did 
the Technical Working Group test, actually test.
    Mr. Knapp. They tested a pretty significant number of each 
different type. So for cell phones, for example, and for the 
personal navigation devices, I believe it was well over 75 or 
so.
    Mr. Stearns. Seventy-five, OK. How many different types of 
GPS receivers did the PNT ExCom test?
    Mr. Knapp. As broad categories, I believe there were six or 
seven different categories.
    Mr. Stearns. In the Technical Working Group testing, what 
types of GPS devices were deemed susceptible to harmful 
overload interference?
    Mr. Knapp. So the report from NTIA commented that the cell 
phones--well, for any device if they get close enough, you can 
have interference, but the cell phones appeared to be OK. That 
there was concern that 75 percent of the--and I am just 
reciting what the report said--75 percent of what are called 
the general navigation devices. In the case of aeronautical, 
the judgment was against an industry standard.
    Mr. Stearns. Were there certain types of GPS receivers that 
did not receive harmful interference from LightSquared's 
signal, yes or no?
    Mr. Knapp. Yes.
    Mr. Stearns. What standard was used to determine harmful 
interference in the Technical Working Group's testing?
    Mr. Knapp. So there were different standards for each of 
the different working groups. In the case of cell phones, they 
used the worldwide standards developed by a group called the 3G 
PP, which is Third Generation Partnership. There were no 
standards for general navigation. They used a standard for the 
aeronautical equipment based on the radio technical.
    Mr. Stearns. What is the FCC's responsibility to oversee 
the working group?
    Mr. Knapp. So, in this case, we did what we often do; we 
brought all of the parties together through this process with 
the----
    Mr. Stearns. So you are a facilitator and not much more? 
You are not an investigator, oversight or an enforcer----
    Mr. Knapp. Part of the rationale here is we want to be 
careful not to steer the work of the group, because in the end 
we may have to make a decision and assess its work.
    Mr. Stearns. I understand.
    Who provided the devices for the Technical Working Group 
testing?
    Mr. Knapp. That came from the working group itself, which 
was co-chaired by the GPS industry and LightSquared.
    Mr. Stearns. In the PNT ExCom testing, what types of 
receivers were deemed susceptible to harmful overload 
interference?
    Mr. Knapp. So, just to be clear, there was a first round of 
testing. And in the second round, all that was looked at was 
cell phones and general navigation devices and then a 
particular class of aeronautical equipment that was used for 
mapping terrain.
    Mr. Stearns. I think I have asked this before, but certain 
types of GPS receivers, weren't some of them--did not receive 
harmful interference from LightSquared? Isn't it true some of 
them did not, isn't that true?
    Mr. Knapp. Yes.
    Mr. Stearns. Would you say there are a lot of receivers 
that did not receive it, or was it significant, would you say 
significant?
    Mr. Knapp. So it varied across the categories. And one of 
the categories that was particularly not covered in the second 
round was called high-precision equipment. And that is some of 
the equipment that is designed actually to operate across both 
bands together.
    Mr. Stearns. If harmful interference was not observed in a 
particular category of GPS devices, does that mean a potential 
solution might exist for that category?
    Mr. Knapp. Well, for the equipment that didn't experience 
harmful interference, yes, there is a solution for that 
category.
    Mr. Stearns. In your mind's eye, can this problem be 
solved?
    Mr. Knapp. I think the----
    Mr. Stearns. Just yes or no.
    Mr. Knapp. I can't answer yes or no because just as when we 
went into this, until you work through the problems, you don't 
know the answer.
    Mr. Stearns. Well, describe what your solution would be?
    Mr. Knapp. I can't describe what my solution would be. I 
know that there are ideas that are on the table that we are 
considering.
    Mr. Stearns. And do you endorse any of those ideas?
    Mr. Knapp. No, we have an open proceeding. It would 
prejudice the outcome for me to endorse one or the other.
    Mr. Stearns. Well, as an electrical engineer, don't you 
think this could be solved?
    Mr. Knapp. As an electrical engineer, we always strive to 
solve the problem, but there is no certainty that you are going 
to.
    Mr. Stearns. You got to pass the exam. It is either yes or 
not. All right. Well, as I say, you know, I am just--I think 
all of us are a little frustrated with this huge possible 
innovation leap here in the loss of this company. So, anyway, 
my time is expired.
    Ms. DeGette. Mr. Chairman, first of all, I would like to 
ask unanimous consent to put the spectrum chart into the 
record, which I had shared with your staff.
    Mr. Stearns. By unanimous consent, it will be made part of 
the record.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 86420.022
    
    [GRAPHIC] [TIFF OMITTED] 86420.023
    
    Ms. DeGette. Thank you.
    I also understand that you are going to put the exhibit 
notebook into the record, subject to some redactions that will 
be agreed upon by staff.
    Mr. Stearns. That is correct.
    Ms. DeGette. I would just ask unanimous consent that we put 
Ms. De La Torre's memo Exhibit 1 in the exhibit book in without 
redaction.
    Mr. Stearns. Unanimous consent, so ordered.
    [The information appears at the conclusion of the hearing.]
    Ms. DeGette. Thank you very much.
    I just want to say I don't have any questions, you will be 
happy to know. But I just want to say that this entire hearing 
really highlights the urgency of the work that the Select 
Working Group that Chairman Upton put together and which I was 
privileged to serve, a subcommittee--select subcommittee of 
this full committee, because as we look more and more at the 
use of spectrum and as we look at increasing demands on our 
spectrum, we are really going to have to figure out how we 
balance really important legitimate commercial needs, like in 
this situation with LightSquared, with GPS and other security 
needs and so on. And I think that that work that the select 
working group has been doing throughout the spring, summer, and 
fall has real urgency, and I am sure that the FCC would agree 
with that.
    And Mr. Chairman, I look forward to working in the next 
session of Congress on both sides of the aisle to start to 
figure out what we do with some of these issues. Because, 
unfortunately, I think it was Mr. Knapp who said that in his 
30-plus years at the agency, he hasn't seen a situation like 
this. But I think everybody would agree if we can't start to 
think about what we are doing with our spectrum, we are going 
to see more and more situations and more and more demands 
bumping up against each other.
    I see both of our witnesses nodding their heads yes.
    So thank you for having this hearing, and I look forward to 
continuing to work with you.
    Mr. Stearns. I thank the gentlelady.
    I thank the witnesses for their testimony this morning.
    In conclusion, I would like to thank all the members for 
staying here. I remind members they have 10 business days to 
submit questions for the record.
    And I ask the witnesses to all agree to promptly respond to 
these questions.
    And with that, this is my last hearing as a Member of 
Congress, and I just want to thank the members on both sides 
for their participation and, more importantly, the staff. The 
staff has done a great job throughout my tenure as chairman of 
the Oversight Committee, and I appreciate all their hard work.
    [Whereupon, at 10:35 a.m., the subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 86420.024
    
    [GRAPHIC] [TIFF OMITTED] 86420.025
    
    [GRAPHIC] [TIFF OMITTED] 86420.026
    
    [GRAPHIC] [TIFF OMITTED] 86420.027
    
    [GRAPHIC] [TIFF OMITTED] 86420.028
    
    [GRAPHIC] [TIFF OMITTED] 86420.029
    
    [GRAPHIC] [TIFF OMITTED] 86420.030
    
    [GRAPHIC] [TIFF OMITTED] 86420.031
    
    [GRAPHIC] [TIFF OMITTED] 86420.032
    
    [GRAPHIC] [TIFF OMITTED] 86420.033
    
    [GRAPHIC] [TIFF OMITTED] 86420.034
    
    [GRAPHIC] [TIFF OMITTED] 86420.035
    
    [GRAPHIC] [TIFF OMITTED] 86420.036
    
    [GRAPHIC] [TIFF OMITTED] 86420.037
    
    [GRAPHIC] [TIFF OMITTED] 86420.038
    
    [GRAPHIC] [TIFF OMITTED] 86420.039
    
    [GRAPHIC] [TIFF OMITTED] 86420.040
    
    [GRAPHIC] [TIFF OMITTED] 86420.041
    
    [GRAPHIC] [TIFF OMITTED] 86420.042
    
    [GRAPHIC] [TIFF OMITTED] 86420.043
    
    [GRAPHIC] [TIFF OMITTED] 86420.044
    
    [GRAPHIC] [TIFF OMITTED] 86420.045
    
    [GRAPHIC] [TIFF OMITTED] 86420.046
    
    [GRAPHIC] [TIFF OMITTED] 86420.047
    
    [GRAPHIC] [TIFF OMITTED] 86420.048
    
    [GRAPHIC] [TIFF OMITTED] 86420.049
    
    [GRAPHIC] [TIFF OMITTED] 86420.050
    
    [GRAPHIC] [TIFF OMITTED] 86420.051
    
    [GRAPHIC] [TIFF OMITTED] 86420.052
    
    [GRAPHIC] [TIFF OMITTED] 86420.053
    
    [GRAPHIC] [TIFF OMITTED] 86420.054
    
    [GRAPHIC] [TIFF OMITTED] 86420.055
    
    [GRAPHIC] [TIFF OMITTED] 86420.056
    
    [GRAPHIC] [TIFF OMITTED] 86420.057
    
    [GRAPHIC] [TIFF OMITTED] 86420.058
    
    [GRAPHIC] [TIFF OMITTED] 86420.059
    
    [GRAPHIC] [TIFF OMITTED] 86420.060
    
    [GRAPHIC] [TIFF OMITTED] 86420.061
    
    [GRAPHIC] [TIFF OMITTED] 86420.062
    
    [GRAPHIC] [TIFF OMITTED] 86420.063
    
    [GRAPHIC] [TIFF OMITTED] 86420.064
    
    [GRAPHIC] [TIFF OMITTED] 86420.065
    
    [GRAPHIC] [TIFF OMITTED] 86420.066
    
    [GRAPHIC] [TIFF OMITTED] 86420.067
    
    [GRAPHIC] [TIFF OMITTED] 86420.068
    
    [GRAPHIC] [TIFF OMITTED] 86420.069
    
    [GRAPHIC] [TIFF OMITTED] 86420.070
    
    [GRAPHIC] [TIFF OMITTED] 86420.071
    
    [GRAPHIC] [TIFF OMITTED] 86420.072
    
    [GRAPHIC] [TIFF OMITTED] 86420.073
    
    [GRAPHIC] [TIFF OMITTED] 86420.074
    
    [GRAPHIC] [TIFF OMITTED] 86420.075
    
    [GRAPHIC] [TIFF OMITTED] 86420.076
    
    [GRAPHIC] [TIFF OMITTED] 86420.077
    
    [GRAPHIC] [TIFF OMITTED] 86420.078
    
    [GRAPHIC] [TIFF OMITTED] 86420.079
    
    [GRAPHIC] [TIFF OMITTED] 86420.080
    
    [GRAPHIC] [TIFF OMITTED] 86420.081
    
    [GRAPHIC] [TIFF OMITTED] 86420.082
    
    [GRAPHIC] [TIFF OMITTED] 86420.083
    
    [GRAPHIC] [TIFF OMITTED] 86420.084
    
    [GRAPHIC] [TIFF OMITTED] 86420.085
    
    [GRAPHIC] [TIFF OMITTED] 86420.086
    
    [GRAPHIC] [TIFF OMITTED] 86420.087
    
    [GRAPHIC] [TIFF OMITTED] 86420.088
    
    [GRAPHIC] [TIFF OMITTED] 86420.089
    
    [GRAPHIC] [TIFF OMITTED] 86420.090
    
    [GRAPHIC] [TIFF OMITTED] 86420.091
    
    [GRAPHIC] [TIFF OMITTED] 86420.092
    
    [GRAPHIC] [TIFF OMITTED] 86420.093
    
    [GRAPHIC] [TIFF OMITTED] 86420.094
    
    [GRAPHIC] [TIFF OMITTED] 86420.095
    
    [GRAPHIC] [TIFF OMITTED] 86420.096
    
    [GRAPHIC] [TIFF OMITTED] 86420.097
    
    [GRAPHIC] [TIFF OMITTED] 86420.098
    
    [GRAPHIC] [TIFF OMITTED] 86420.099
    
    [GRAPHIC] [TIFF OMITTED] 86420.100
    
    [GRAPHIC] [TIFF OMITTED] 86420.101
    
    [GRAPHIC] [TIFF OMITTED] 86420.102
    

                                 <all>

</pre></body></html>
